No. 20-366

In The

Supreme Court of the United States
____________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.,
Petitioners,
V.

STATE OF NEW YORK, ET AL.,
____________

Respondents.

On Appeal from the United States District Court
for the Southern District of New York
____________
BRIEF FOR CITY OF SAN JOSE, CALIFORNIA; KING COUNTY, WASHINGTON;
ARLINGTON COUNTY, VIRGINIA; HARRIS COUNTY, TEXAS; BLACK ALLIANCE
FOR JUST IMMIGRATION; SAM LICCARDO; RODNEY ELLIS; ZERIHOUN
YILMA; LOVETTE KARGBO-THOMPSON; AND SANTCHA ETIENNE AS AMICI
CURIAE IN SUPPORT OF APPELLEES

____________

CERTIFICATE OF SERVICE
I, Richard P. Bress, counsel for Amici Curiae City of San Jose, California;
King County, Washington; Arlington County, Virginia; Harris County, Texas; Black
Alliance for Just Immigration; Sam Liccardo; Rodney Ellis; Zerihoun Yilma; Lovette
Kargbo-Thompson; and Santcha Etienne, and a member of the Bar of this Court,
hereby certify that on the 16th day of November, 2020, I caused to be served three
(3) copies of the Brief for City of San Jose, California; King County, Washington;
Arlington County, Virginia; Harris County, Texas; Black Alliance for Just
Immigration; Sam Liccardo; Rodney Ellis; Zerihoun Yilma; Lovette Kargbo-

Thompson; and Santcha Etienne as Amici Curiae in Support of Appellees in the
above-referenced case by first-class mail, postage prepaid, upon the counsel for
Appellants and Appellees as listed below:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Appellants
Dale E. Ho
American Civil Liberties Union
Director, Voting Rights Project
125 Broad Street
New York, NY 10004
(212) 549-2693
dale.ho@aclu.org
Counsel for Appellees New York Immigration Coalition, et al.
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov
Counsel for Government Appellees
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief for City of San Jose, California; King County, Washington;
Arlington County, Virginia; Harris County, Texas; Black Alliance for Just
Immigration; Sam Liccardo; Rodney Ellis; Zerihoun Yilma; Lovette Kargbo-

2

Thompson; and Santcha Etienne as Amici Curiae in Support of Appellees was
transmitted to the above-listed counsel at the referenced email addresses.
I further certify that all parties required to be served have been served.

By
RICHARD P. BRESS
Counsel of Record
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
rick.bress@lw.com
Counsel for Amici Curiae City of San
Jose, California; King County,
Washington; Arlington County,
Virginia; Harris County, Texas; Black
Alliance for Just Immigration; Sam
Liccardo; Rodney Ellis; Zerihoun
Yilma; Lovette Kargbo-Thompson;
and Santcha Etienne

3

